December 2, 2019
By ECF and Hand Delivery
Danny Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-575, Charter Communications, Inc. v. Gallion

Dear Mr. Bickell:
I have very recently been retained as counsel for respondent Steve Gallion in
the above-referenced case. On November 1, 2019, a certiorari petition was docketed
in this case. Unless extended by the Court, the response would be due on December
2, 2019. For the reasons that follow, and pursuant to Rule 30.4, I respectfully
request an extension of 7 days, to and including December 9, 2019.
An extension is necessary in the case to allow me to prepare the brief in
opposition in the very short time I have had since being retained. In addition, my
cocounsel, who briefed and argued the case below and who must review the brief,
have several pressing obligations and commitments, including overseas travel,
having to draft and file four motions for final approval of class action settlement, as
well as having to prepare for oral argument in a novel appeal set for this week. An
extension will allow cocounsel to meet their obligations and also allow me to file a
response that adequately addresses the points raised in the petition.
It is my understanding that the short extension sought, in light of the Court’s
distribution schedule, will not affect the timing of the Court’s consideration of the
petition.
For these reasons, I respectfully ask that a 7-day extension be granted.
Thank you for your attention to this matter.
Sincerely yours,

Scott L. Nelson
Counsel for Respondent Steve Gallion
cc:

Richard P. Bress, Counsel for Petitioners
Noel Francisco, Counsel for Respondent United States

